APPENDIX 1

Case 3:00-cr-00124-HTW Document 48 Filed 09/30/19 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
BOBBIE LEWIS MAYES

PETITIONER

v.

CRIMINAL NO. 3:00-cr-124-HTW
CIVIL NO. 3:16-cv-490-HTW

UNITED STATES OF AMERICA

RESPONDENT
ORDER

Before this Court is the Motion to Vacate Under 28 U.S.C. §22551 [Docket No. 38] filed
by Petitioner Bobbie Lewis Mayes (“Mayes”) on June 23, 2016.
PROCEDURAL HISTORY
On August 4, 2017, the Court held a motion hearing on Mayes’s Motion to Vacate Under
28 U.S.C. §2255 [Docket No. 38] 2. The facts of the case are as follows:
On October 26, 2000, Mayes was convicted by a trial jury of carjacking in violation of 18
U.S.C. § 2119(1) [Docket No. 14]. Mayes was sentenced on January 22, 2001. Mayes’s PreSentence Report (PSR) [Docket No. 25] demonstrated a criminal history that qualified Mayes as a
career offender under U.S.S.G. § 4B1.1. [PSR ¶¶ 23, 27-31]. The Court sentenced him to 180
months’ imprisonment, followed by a three-year term of supervised release 3, and entered judgment

1

28 U.S.C. §2255(a): (a) A prisoner in custody under sentence of a court established by Act of Congress claiming
the right to be released upon the ground that the sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such sentence, or that the sentence was in excess
of the maximum authorized by law, or is otherwise subject to collateral attack, may move the court which imposed
the sentence to vacate, set aside or correct the sentence.

2

This Court awaited the 2017 United States Supreme Court decision in Beckles v. United States, 137 S. Ct. 886
(2017), which deals directly with the issue in Petitioner’s motion to vacate.

3

Mayes has completed his sentence of incarceration with the Bureau of Prisons and is currently serving his imposed
sentence of Supervised Release, which commenced on September 14, 2018.

1

Case 3:00-cr-00124-HTW Document 48 Filed 09/30/19 Page 2 of 6

on that same day [Docket Nos. 23, 24]. Mayes appealed, and the Fifth Circuit affirmed [Docket
Nos. 28, 29].
On June 26, 2015, the Supreme Court decided Johnson v. United States, 135 S. Ct. 2551
(2015), in which it held that the “residual clause” definition for “violent felony” in the Armed
Career Criminal Act, 18 U.S.C. § 924(e), is unconstitutionally vague. 135 S.Ct. at 2563. On June
23, 2016, Mayes filed a motion seeking relief under 28 U.S.C. § 2255 based on Johnson.
DISCUSSION
Mayes was sentenced in the year 2001, at which time the sentencing guidelines were
mandatory. In 2005, the United States Supreme Court decided Booker v. United States, which
rendered the sentencing guidelines advisory rather than mandatory. Booker, 543 U.S. 220 at 5-7
(2005).
In 2015, the Supreme Court in Johnson v. United States invalidated the residual clause of
the Armed Career Criminal Act (ACCA) as constitutionally vague, and also invalidated the
definition of “crime of violence” found in U.S.S.G. §§ 2K2.1 and 4B1.2. The Supreme Court later
held that “Johnson announced a substantive rule that has retroactive effect in cases on collateral
review.” Welch v. United States, 136 S. Ct. 1257, 1268 (2016).
In March of 2017, the Supreme Court held that any unconstitutional vagueness in the
ACCA, recognized in Johnson, did not invalidate U.S. Sentencing Guideline definitions because
“the advisory Sentencing Guidelines are not subject to vagueness challenges under the Due Process
Clause”, explaining that the “advisory guidelines do not fix the permissible range of sentences”,
but “merely guide the exercise of the court’s discretion in choosing an appropriate sentence within
the statutory range.” Beckles v. United States, 137 S. Ct. 886 (2017). Thus, it is apparent that the
Supreme Court in Beckles addressed the constitutionality of advisory guidelines, but left open the

2

Case 3:00-cr-00124-HTW Document 48 Filed 09/30/19 Page 3 of 6

question of whether a defendant sentenced to terms of imprisonment before Booker, in which time
the Guidelines were mandatory, has a novel claim to challenge his sentence.
Mayes contends that the holdings in Johnson apply to his case because he was sentenced
pre-Booker, when the application of the guidelines was mandatory.
During the August 4, 2017 motion hearing on this matter, the Government presented the
Court with the holding of United States v. Torres, 2017 WL 3052974 (D. New Mexico, June 20,
2017) to support its position that Mayes’s petition is not predicated on a recognizable, retroactively
applied right. The facts of Torres are analogous to the facts in our current matter. Torres was
sentenced as a career offender under U.S.S.G. § 4B1.1(a) (2002) based on prior convictions for
New Mexico Voluntary Manslaughter, in 1998, and New Mexico Accessory to Aggravated Battery
with a Deadly Weapon, in 1999. Due to his career offense designation, Torres’s offense level was
increased to 37. After a three level reduction for acceptance of responsibility, his offense level was
34, and his criminal history category was VI. His guideline imprisonment range was 262-327
months as to count one, and 240 months as to count two, with the terms to run concurrently. He
was sentenced to 262 months of imprisonment on December 17, 2002, and Judgment was entered
the same day.
On November 28, 2003, Torres filed a pro se Motion to Vacate Illegal Sentence under 28
U.S.C. § 2255 alleging ineffective assistance of counsel, which was later dismissed by the Court.
On May 25, 2016, Torres, through counsel, sought permission to file a successive § 2255
motion, seeking to argue that his career offender enhancement was unconstitutional after Johnson.
The Tenth Circuit granted the authorization, and Torres filed his motion on June 23, 2016.
Similar to the argument made by Mayes, Torres argued that his sentence violated the Due
Process Clause of the Fifth Amendment because it was imposed under the residual clause of the

3

Case 3:00-cr-00124-HTW Document 48 Filed 09/30/19 Page 4 of 6

then-mandatory career offender guideline, which contains the same language the Supreme Court
found unconstitutionally vague in Johnson. Torres asserted that the sentencing guidelines were
mandatory in 2002 when he was sentenced because the Supreme Court had not yet decided Booker
and rendered the guidelines advisory. Torres argued that his sentence should be vacated because
of the announcement of a new, substantive, retroactive right in Johnson.
The District Court noted that the Supreme Court’s decision Beckles, which left open the
question of whether sentences imposed under pre-Booker guidelines could be challenged for
vagueness, did not create a newly recognizable right to modify a sentence enhanced by the preBooker guidelines, nor did it make such a right retroactively applicable to cases on collateral
review. (“Simply put, if a concurring opinion says the existence of a right remains an open
question, and the majority opinion does not explicitly address the right, then the Supreme Court
did not previously announce the existence of the same right.”) Torres, 2017 WL 3052974 at *3.
Subsequent to the August 4, 2017 motion hearing, the Court became aware of a decision
from the United States District Court for the Eastern District of Louisiana, being United States v.
London, 2017 WL 3393989 (E.D. La. Aug. 8, 2017). The facts of that case were also analogous to
the ones in our present case, i.e. the petitioner sought relief pursuant to §2255 and asserted that
Johnson applied to his pre-Booker sentence because the guidelines (Section 4B1.2(a)(2),
specifically) were then mandatory. Id. at *3. In London, the District Court noted the Fifth Circuit’s
holding in In re Arnick, in which the Court explained that
“Johnson did not address Section 4B1.2(a)(2) of the Guidelines. Nor has the
Supreme Court held that a Guidelines enhancement that increases the Guidelines
range implicates the same due process concerns as a statute that increases a
statutory penalty. . . Further, even if Johnson does implicate Section 4B1.2(a)(2),
the Supreme Court has not addressed whether this arguably new rule of criminal
procedure applies retroactively to cases on collateral review.”
London, 2017 WL 3393989 at *3 (citing In re Arnick, 826 F.3d 787, 788 (5th Cir. 2016)).
4

Case 3:00-cr-00124-HTW Document 48 Filed 09/30/19 Page 5 of 6

While London asserted that Beckles confirms that Johnson applies to the mandatory
Guidelines’ residual clause, the District Court did not agree (“the Supreme Court in Beckles
essentially avoided the issue by holding only that the advisory Guidelines are not subject to
vagueness challenges.”) Id. at *4.
The District Court declined to extend the rule in Johnson to London’s pre-Booker sentence,
and rejected his assertion that Johnson created a newly recognized right that could be retroactively
applied. The Court went on to demonstrate that the Supreme Court, in deciding Beckles, declined
to address whether Johnson applies to guidelines sentences, and thus did not in essence create a
newly recognized right simply by holding that the advisory guidelines were not subject to a
vagueness challenge. Indeed, Justice Sotomayor stated in her concurring opinion to Beckles:
“The Court’s adherence to the formalistic distinction between mandatory
and advisory rules at least leaves open the question whether defendants sentenced
to terms of imprisonment before our decision in [Booker]- that is, during the period
in which the Guidelines did “fix the permissible range of sentences,” ante, at 892may mount vagueness attacks on their sentences. That question is not presented by
this case and I, like the majority, take no position on its appropriate resolution.”
London, 2017 WL 3393989 at *2 (citing Beckles, 137 S. Ct. at 903, n.4 (emphasis added)).
In August 2019, the United States Court of Appeals for the Fifth Circuit affirmed the
District Court’s decision, holding that “London’s 28 U.S.C. § 2255 motion is untimely because
he has failed to assert a right recognized in Johnson”. U.S. v. London, 17-30675, 2019 WL
4065601, at *6 (5th Cir. Aug. 29, 2019), as revised (Sept. 6, 2019). The Court reasserted that the
Supreme Court has yet to decide whether a vagueness challenge can be raised under the preBooker Sentencing Guidelines. Instead, the Court stated, “the [Supreme] Court’s decisions up
until this point evince a distinction between statutes that fix sentences and Guidelines that
attempt to constrain the discretion of sentencing judges”. Id. at*4.

5

Case 3:00-cr-00124-HTW Document 48 Filed 09/30/19 Page 6 of 6

Thus, it is clear that neither the rule in Johnson nor the holding in Beckles created a newly
recognized right by the Supreme Court for defendants to challenge their sentences imposed under
the pre-Booker guidelines. Additionally, even if Johnson did implicate the Guidelines, the
Supreme Court has not addressed whether the rule applies retroactively.
In compliance with the Fifth Circuit’s holding in London, this Court finds that the Supreme
Court has not recognized a right for Mayes to challenge his sentence under the pre-Booker
guidelines, nor has the Supreme Court made such a right retroactively applicable to cases on
collateral review. Thus, Mayes’s petition is time-barred under the provisions of §2255 4 and as
such must be denied.
IT IS THEREFORE ORDERED that Mayes’s Motion to Vacate Under 28 U.S.C. §2255
[Docket No. 38] is hereby DENIED. Upon the announcement of a newly recognized right by the
Supreme Court that has been made retroactively applicable to cases on collateral review, Mayes
may petition the Court to vacate his sentence pursuant to the rules and requirements of §2255.
IT IS FURTHER ORDERED that a Certificate of Appealability should not issue.
Defendant has failed to make a substantial showing of the denial of a constitutional right.
SO ORDERED on this, the 30th day of Setptember, 2019.
/s/HENRY T. WINGATE
UNITED STATES DISTRICT COURT JUDGE

4

28 U.S.C. §2255(f)(3): A 1-year period of limitation shall apply to a motion under this section. The limitation
period shall run from the latest of--the date on which the right asserted was initially recognized by the Supreme
Court, if that right has been newly recognized by the Supreme Court and made retroactively applicable to cases on
collateral review.

6

APPENDIX 2

Case: 19-60733

Document: 00515547721

Page: 1

Date Filed: 09/01/2020

United States Court of Appeals
for the Fifth Circuit
No. 19-60733
A True Copy
Certified order issued Sep 01, 2020

United States of America,
Clerk, U.S. Court of Appeals, Fifth Circuit

Plaintiff—Appellee,
versus
Bobbie Lewis Mayes,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:15-CV-490
USDC No. 3:00-CV-124-1
ORDER:
Following his 2001 conviction for carjacking, Bobbie Lewis Mayes,
federal prisoner # 05920-043, was sentenced to 180 months of imprisonment
and three years of supervised release based in part on the determination that
he was a career offender within the meaning of U.S.S.G. § 4B1.1. He now
seeks a certificate of appealability (COA) to appeal the district court’s denial
of his 28 U.S.C. § 2255 motion challenging his sentence as a career offender
under the mandatory, pre-Booker 1 Sentencing Guidelines in light of Johnson
1

United States v. Booker, 543 U.S. 220, 245 (2005).

Case: 19-60733

Document: 00515547721

Page: 2

Date Filed: 09/01/2020

No. 19-60733

v. United States, 576 U.S. 591 (2015). The district court determined that this
claim was time barred.
To obtain a COA, Mayes must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When a district
court has denied a request for relief on procedural grounds, the movant must
show “that jurists of reason would find it debatable whether [he] states a valid
claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural
ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Mayes has not made the required showing. See id.; see also United
States v. London, 937 F.3d 502 (5th Cir. 2019), cert. denied, 140 S. Ct. 1140
(2020). Consequently, his motion for COA is DENIED.

___________________________
GREGG COSTA
United States Circuit Judge

2

